2003-02-12 – Report SO2IS013
Inspection Report to Management on “Inspection of 2001
Safeguards and Security Survey of Los Alamos National Laboratory”

Note: This report contains information that is protected by the Freedom of Information Act and the Privacy Act. The follow-
ing summary of the report is public.

BACKGROUND

The Office of Inspector General received a complaint that the Department of Energy’s 2001 Safeguards and Security Survey
of Los Alamos National Laboratory was compromised. Specifically, the complaint alleged that:

·       the survey team was instructed to only document observations and not findings;

·       the survey period was shortened from two weeks to four days;

·       the survey scope was reduced; and,

·       the survey topical area ratings appeared to be manipulated.

The objective of this inspection was to determine if the 2001 Safeguards and Security Survey of Los Alamos National Labo-
ratory was compromised as alleged.

RESULTS OF INSPECTION

In general, the inspection did not substantiate these allegations. After reviews of the documentation supporting the survey
and discussions with numerous team members, we found no evidence that there had been any direction to take inappropriate
action with regard to the inclusion of observations and findings in the survey report; the scope of the survey had been reduced
in any meaningful way; or, that the survey topical areas had been inappropriately manipulated. We did find that the survey
period had been shortened, but not to the extent alleged. The team members asserted that the length of the survey period had
essentially no effect on their conclusions.

However, we did find that concerns regarding the methodology supporting a 2001 Los Alamos National Laboratory for-
ce-on-force exercise had not been included in the survey report. Force-on-force exercises are key parts of the facility protec-
tion strategy and are, as a result, of considerable importance at an installation such as Los Alamos. We noted that neither a
formal “murder board” nor a “working closeout” meeting had been held as part of the Los Alamos survey effort. These meet-
ings facilitate open discussions between and among team members and Los Alamos staff, ensuring that open issues are fully
vetted. We concluded that had such meetings taken place, there is a high likelihood that the force-on-force matter would have
surfaced and would have been appropriately resolved and addressed in the final survey report. Further, it was clear that many
of the team members would have had more confidence in the survey process, had these meetings been held.

As a consequence of these findings, we recommended that the National Nuclear Security Administration (NNSA):

    ·      review the outcome of the force-on-force exercise referenced in the 2001 Safeguards and Security Survey of Los Ala-
           mos National Laboratory, and ensure that concerns relating to the protection strategy have been corrected; and,

    ·      ensure that all future security survey results are fully vetted through the use of “murder boards” and “working close-
           outs” as part of the survey process.

We are forwarding our findings to the Office of Independent Oversight and Performance Assurance for further consideration.

MANAGEMENT REACTION

NNSA management agreed with the report recommendations, but disagreed with the report’s conclusions that information re-
garding the site’s protection strategy may not have been considered during the survey. NNSA management stated we were
probably unaware that a classified report on the results of the force-on-force exercise was prepared; and that the results of the
exercise were, in fact, integrated into the overall survey, and all opinions from exercise observers were considered for the sur-
vey report.

INSPECTOR COMMENTS

The Department officials who observed the 2001 force-on-force exercise informed us that they had not been approached by
survey team members to discuss and resolve their concerns. Further, we reviewed the classified report referenced by NNSA
management. It is our view that the report does not address and resolve the force-on-force concerns raised by the observers.
